                 Department of the Interior
                 Office of Inspector General




              Audit Report



                  U.S. Fish and Wildlife Service
               Wildlife and Sport Fish Restoration
                 Program Grants Awarded to the
         State of Texas, Parks and Wildlife Department,
        From September 1, 2006, Through August 31, 2008




Report No.
R-GR-FWS-0005-2009                      November 2009
                 United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                November 13, 2009

                                       AUDIT REPORT
Memorandum

To:          Director
             U.S. Fish and Wildlife Service

From:        Suzanna I. Park
             Director of External Audits

Subject:     Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
             Program Grants Awarded to the State of Texas, Parks and Wildlife Department,
             From September 1, 2006, Through August 31, 2008 (No. R-GR-FWS-0005-2009)

        This report presents the results of our audit of costs claimed by the State of Texas (State),
Parks and Wildlife Department (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $64.8
million on 125 grants that were open during State fiscal years (SFYs) ended August 31 of 2007
and 2008 (see Appendix 1). The audit also covered Department compliance with applicable
laws, regulations, and FWS guidelines, including those related to the collection and use of
hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling approximately $1.2 million
(federal share) claimed for ineligible contributions, ineligible vehicle ownership costs, and
unsupported indirect costs. We also identified issues with unsupported in-kind contributions,
incomplete equipment records, and unreconciled real property records.

      We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 2 responses and provided our comments on the responses after the
recommendations. We list the status of each recommendation in Appendix 4.

        Please respond in writing to the findings and recommendations included in this report by
February 11, 2010. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Bill Streifel, or me at 703–487–5345.

cc:     Regional Director, Region 2, U.S. Fish and Wildlife Service
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $64.8 million on the 125 grants that were
open during SFYs 2007 and 2008 (see Appendix 1). We report only on those conditions that
existed during this audit period. We performed our audit at Department headquarters in Austin,
TX, and visited one district office, one field office, one hatchery, and four wildlife management
areas (WMAs) (see Appendix 3). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act Amendments of 1996 and by Office of Management and
Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of its fish and game agency; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Department’s operations.

Prior Audit Coverage
On January 30, 2007, we issued “Audit on the U.S. Fish and Wildlife Service Federal Assistance
Grants Awarded to the State of Texas Parks and Wildlife Department, From September 1, 2002,
Through August 31, 2004” (No. R-GR-FWS-0014-2005). We followed up on all 17
recommendations in the report and found that the Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget was still tracking the implementation of
five recommendations. The recommendation pertaining to unsupported in-kind contributions is
repeated in this report. We discuss this recommendation in more detail in the Findings and
Recommendations section of this report.

We also reviewed the Single Audit Reports of the Texas Department of Parks and Wildlife for
SFYs 2007 and 2008 and determined that the Department’s Wildlife and Sport Fish Restoration
Program was not selected for specific review. In addition, no findings from these reports related
to the Department’s administration of the Program.


                                                3
                                   Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling
approximately $1.2 million (federal share). We discuss the findings in more detail in the
Findings and Recommendations section.

       •   Questioned Costs. The Department claimed ineligible contributions, ineligible
           vehicle ownership costs, and unsupported indirect costs. As a result, we questioned
           costs totaling approximately $1.2 million (federal share).

       •   Unsupported In-Kind Contributions. The Department did not maintain adequate
           documentation to support volunteer hours claimed by three hunter education
           instructors on Grants W-104-S-35 and W-104-S-36.

       •   Incomplete Equipment Records. The Department acquired equipment with
           Program grant funds that was not recorded in its State Property Accounting (SPA)
           system.

       •   Unreconciled Real Property Records. The Department and FWS had not
           reconciled their respective real property records because the Department’s inventory
           listing did not include the funding source for its lands.

Findings and Recommendations
A.     Questioned Costs — $1,210,857

       1. Ineligible Contributions — $284,530

           The Department claimed expenditures of $284,530 (federal share) comprising
           contributions to Ducks Unlimited, Inc. This amount was reimbursed under two
           grants, W-128-R-16 ($153,427) and W-128-R-15 ($131,103), for Migratory Bird
           Research and Surveys.

           Contributions are strictly prohibited by the Code of Federal Regulations (C.F.R.), in
           2 C.F.R. § 225, Appendix B, Subsection 12.a., which states, “Contributions or
           donations, including cash, property, and services, made by the governmental unit,
           regardless of the recipient, are unallowable.”

           We determined that a Department official erroneously claimed this expenditure for
           reimbursement. According to the Grants Coordinator, the responsible official has
           been informed that such contributions may not be reimbursed with grant funds.



                                                4
   Recommendation

   We recommend that FWS resolve the $284,530 in questioned costs.

   Department Response

   The Department agreed with the recommendation and intends to resolve the $284,530
   of ineligible cost. The Department anticipates a completion date of December 31,
   2009.

   FWS Response

   FWS Regional officials reviewed the State’s response and proposed actions to be
   taken. FWS will work closely with State personnel in the development and
   implementation of a corrective action plan that will resolve and implement all of the
   audit findings and recommendations.

   OIG Comments

   Based on the Department and FWS responses, additional information is needed in the
   corrective action plan, indicating verification that FWS headquarters officials
   reviewed and approved of actions taken or planned by the Department.

2. Ineligible Vehicle Ownership Costs — $146,703

   The Department assesses a mileage cost for the use of all its vehicles based on a
   standard mileage rate established by the U. S. Internal Revenue Service. The rate
   includes per mile ownership and expense components. However, we noted that the
   ownership rate was charged on 101 vehicles purchased with Program and other
   Federal grant funds. As a result, the Department recovered duplicate payments of
   $146,703 (federal share) by charging 21 Program grants for both the purchase price of
   the vehicles and the ownership costs (see Appendix 2). We found that Department
   personnel miscoded projects in the financial management system, resulting in the
   ineligible costs.

   These costs were not incurred in accordance with 2 C.F.R. § 225, Appendix A,
   Subsection C.2, which defines allowable costs as necessary, reasonable, allowable,
   and authorized or not prohibited.

   Recommendation

   We recommend that FWS resolve the $146,703 in questioned costs.




                                        5
   Department Response

   The Department did not agree that all 101 vehicles resulting in the ineligible costs
   shown on Appendix 2 were purchased with Program and other federal grant funds.
   The Department intends to have its Finance Director resolve the costs by
   December 31, 2009.

   FWS Response

   FWS Regional officials reviewed the State’s response and proposed actions to be
   taken. FWS will work closely with State personnel in the development and
   implementation of a corrective action plan that will resolve and implement all of the
   audit findings and recommendations.

   OIG Comments

   Based on the Department and FWS responses, additional information is needed in the
   corrective action plan, including:

      • the specific actions taken or planned to address the recommendation, and

      • verification that FWS headquarters officials reviewed and approved of actions
         taken or planned by the Department.

3. Unsupported Indirect Costs — $779,624

   The Department claimed $799,624 of indirect costs on the 28 Program grants in
   SFY2007. However, information from the financial management system did not
   support these charges because the Department reversed the $779,624.

   The Department planned on spending grant funding on direct costs to offset the
   indirect costs that were claimed. However, the Department did not incur sufficient
   direct costs to offset the indirect costs.

   According to 43 C.F.R. § 12.60(a), fiscal control and accounting procedures of the
   State must be sufficient to permit the preparation of required reports and the tracing
   of funds to a level of expenditures adequate to establish that they have not been used
   in violation of applicable statutes.

   As a result, we are questioning a total of $779,624 in indirect costs (federal share) for
   which there was neither support in the Department's financial management system to
   substantiate the claimed indirect costs, nor sufficient direct costs to offset the reversed
   indirect costs.




                                         6
        Recommendations

        We recommend that FWS:

        1. resolve the $779,624 in unsupported indirect costs, and

        2. ensure the Department revises the applicable Financial Status Reports to correctly
           reflect information in its financial management system.

        Department Response

        The Department agreed with the recommendations and intends to have the Finance
        Director resolve the $779,624 of unsupported indirect costs by December 31, 2009.

        FWS Response

        FWS Regional officials reviewed the State’s response and proposed actions to be
        taken. FWS will work closely with State personnel in the development and
        implementation of a corrective action plan that will resolve and implement all of the
        audit findings and recommendations.

        OIG Comments

        Based on the Department and FWS responses, additional information is needed in the
        corrective action plan, including:

            •   the specific actions taken or planned to address the recommendations; and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

B.   Unsupported In-Kind Contributions

     Under the Program, States must use “State matching” (nonfederal) funds to cover at least
     25 percent of costs incurred in performing projects under the grants. The State’s
     matching share of costs on Grants W-104-S-35 and W-104-S-36, for Hunter Education,
     was primarily composed of noncash (“in-kind”) contributions. These contributions
     consisted of the value of volunteer instructor hours, which the Department calculated by
     multiplying labor rates by the hours donated. However, we found that the Department
     valued the contributions of three volunteer instructors using budgeted hours rather than
     actual hours supported by certified timesheets.

     According to 2 C.F.R. § 225.55, Appendix A, Subsection C.1.j, which outlines basic
     guidelines on cost principles, for a cost to be allowable under federal awards, it must be
     adequately documented. In addition, 43 C.F.R. § 12.64(b)(6) states that, to the extent


                                              7
feasible, volunteer services will be supported by the same methods that the organization
uses to support the allocability of regular personnel costs.

This issue occurred because the Department did not follow its policy to record the actual
certified volunteer hours for the Hunter Education grants. Although the Department
failed to report actual certified volunteer hours, we determined that there was no
monetary impact on the grants because the Department accumulated excess matching
costs. However, overstating the State matching share of costs could lead the Department
to be reimbursed more than it should be under the grants.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0014-2005,
Recommendation A.3.2). Therefore, we are repeating the applicable recommendation
from that report. Implementation of this recommendation will be tracked under the
resolution process for the prior audit report.

Repeat Recommendation

We recommend that FWS require the Department to establish and implement procedures
for determining allowable volunteer hours and require all volunteers to certify their hours
worked.

Department Response

The Department agreed with the recommendation. The Federal Grants Administrator and
Financial Management Director will be responsible for implementation of the procedures
by December 31, 2009.

FWS Response

FWS Regional officials reviewed the State’s response and proposed actions to be taken.
FWS will work closely with State personnel in the development and implementation of a
corrective action plan that will resolve and implement all of the audit findings and
recommendations.

OIG Comments

Based on the Department and FWS responses, additional information is needed in the
corrective action plan, including:

   •   the specific actions taken or planned to address the recommendation; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                         8
C.   Incomplete Equipment Records

     The Department maintains and records all equipment purchased with Program funds in
     the SPA system. However, we identified seven pieces of equipment, valued at $79,953
     ($59,964 federal share), that were purchased with Program funds but were not recorded
     in the SPA system. According to 50 C.F.R. § 80.18(c) and 522 FW 1.16, States must
     control all assets and assure they serve the purpose for which acquired.

     This situation occurred because the Department did not monitor its expenditures to
     identify purchases that should have been recorded within the SPA system. As a result of
     inadequate controls, the Department’s equipment is at increased risk for theft, loss, or
     misuse.

     Recommendation

     We recommend that FWS require the Department to record the equipment purchased
     with Program funds in the SPA system.

     Department Response

     The Department disagreed that seven pieces of equipment purchased with Program funds
     were not recorded in the SPA system. It stated that the seven pieces of equipment
     addressed in this finding were entered into the SPA system preceding the date of the
     audit.

     FWS Response

     FWS Regional officials reviewed the State’s response and proposed actions to be taken.
     FWS will work closely with State personnel in the development and implementation of a
     corrective action plan that will resolve and implement all of the audit findings and
     recommendations.

     OIG Comments

     Based on the Department and FWS responses, additional information is needed in the
     corrective action plan, including:

        •   the specific actions taken or planned to address the recommendation;

        •   targeted completion dates;

        •   titles of officials responsible for the specific actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.


                                              9
D.   Unreconciled Real Property Records

     The Department and FWS each maintain records on land purchased with the Program
     grants. However, these two sets of records have not been reconciled because the
     Department’s inventory listing included real property acquired with Program and non-
     Program funds but did not identify the funding source for each land purchase.

     Federal regulations (43 C.F.R. §§ 12.82 (a)(1)(i) and (c)(2)) require States to retain real
     property records. Furthermore, the FWS Director issued a letter in March 2007,
     requesting each State to maintain a real property management system that includes a
     comprehensive inventory of lands and to ensure that the inventory is accurate and
     complete.

     As a result of this issue, the Department’s land records are not adequate to assure
     effective control over lands acquired with Program grant funds and license revenues.
     Accordingly, the Department cannot ensure that such lands are being used for their
     intended purposes.

     Recommendation

     We recommend that FWS work with the Department to identify the funding source for all
     land purchased and reconcile its real property records with FWS.

     Department Response

     The Department agreed with the recommendation and has begun working with FWS staff
     to reconcile its real property records with the FWS. The Department anticipates
     completion by March 31, 2010, by its Federal Grants Administrator and Financial
     Management Director.

     FWS Response

     FWS Regional officials reviewed the State’s response and proposed actions to be taken.
     FWS will work closely with State personnel in the development and implementation of a
     corrective action plan that will resolve and implement all of the audit findings and
     recommendations.

     OIG Comments

     Based on the Department and FWS responses, additional information is needed in the
     corrective action plan including verification that FWS headquarters officials reviewed
     and approved of actions taken or planned by the Department.




                                              10
                                                       Appendix 1
                                                         Page 1 of 4

         T EXAS P ARKS AND W ILDLIFE DEPARTMENT
        F INANCIAL SUMMARY OF R EVIEW C OVERAGE
       SEPTEMBER 1, 2006, T HROUGH AUGUST 31, 2008
                                          Questioned Costs
                                           (Federal Share)
 Grant          Grant       Claimed   Ineligible Unsupported
Number         Amount        Costs      Costs         Costs
F-201-B-1     $231,540
F-200-B-1      650,000
F-199-B-1      666,667
F-198-B-1      666,667
F-197-R-1      126,000
F-196-E-1      155,000     $37,751
F-195-B-1      666,667
F-194-B-1      540,000
F-193-R-1      101,050
F-192-R-1       71,697      52,557
F-191-B-1    1,176,000      50,115
F-190-R-1       43,958      29,841
F-189-R-1       15,956      11,683
F-188-B-1      111,900      83,925
F-187-B-1      976,069      79,940
F-186-B-1      791,841     503,778
F-185-B-1      580,630
F-184-B-1       60,000      45,000
F-183-B-1      271,000
F-182-B-1      500,000
F-181-B-1      178,024
F-180-R-1      248,318      14,565
F-179-R-1      248,318      30,361
F-178-B-1      666,667
F-177-B-1      463,500
F-176-B-1      889,348     400,692
F-175-B-1      300,000     225,000
F-174-B-1      221,854     166,390
F-173-M-1    3,919,728     540,717
F-172-B-1      200,000     142,500
F-171-B-1      186,447
F-170-B-1      506,540     379,905
F-169-B-1      834,090     526,365
F-168-B-1      547,850     410,887


                           11
                                                             Appendix 1
                                                                  Page 2 of 4

              T EXAS P ARKS AND W ILDLIFE DEPARTMENT
             F INANCIAL SUMMARY OF R EVIEW C OVERAGE
            SEPTEMBER 1, 2006 T HROUGH AUGUST 31, 2008

                                             Questioned Costs
                                              (Federal Share)
   Grant         Grant       Claimed    Ineligible   Unsupported
  Number       Amount         Costs      Costs           Costs
F-167-E-1      $161,420     $121,065
F-164-B-1        867,689     650,766
F-163-B-1        533,445     400,085
F-162-B-1        667,000     500,000
F-161-B-1        500,000     346,858
F-160-B-1        137,500     103,125
F-159-R-1        176,000     128,249                       $29
F-158-R-3         41,397      16,960
F-158-R-2         27,023      16,887                      1,211
F-157-B-1        675,000     500,000
F-156-B-1        666,666     500,000
F-155-B-1     1,333,334      500,000
F-154-B-1        500,000     375,000
F-150-M-1        624,865     468,649
F-149-M-6         40,000
F-149-M-5         40,000     30,000
F-149-M-4         45,000     33,750
F-148-M-6         40,000
F-148-M-5         40,000      30,000                       674
F-148-M-4         40,000       4,638
F-140-T-6     2,000,000      836,844     $4,525
F-140-T-5        674,000     505,500
F-139-T-6       ,111,880   1,061,237      2,270
F-139-T-5     1,031,368      773,526
F-134-R-3         75,004      56,253
F-133-M-6     2,000,034      341,418
F-133-M-5        308,532     231,399
F-130-B-1     1,200,000      900,000
F-129-O-8         39,867
F-129-O-7         39,867      27,480                       106
F-129-O-6         39,867      23,650                       701
F-125-E-8     2,056,900    1,042,170
F-125-E-7     1,531,674      952,685                     36,559
F-117-D-5     1,172,000      879,000


                             12
                                                          Appendix 1
                                                             Page 3 of 4

           T EXAS P ARKS AND W ILDLIFE DEPARTMENT
          F INANCIAL SUMMARY OF R EVIEW C OVERAGE
         SEPTEMBER 1, 2006, T HROUGH AUGUST 31, 2008

                                         Questioned Costs
                                          (Federal Share)
   Grant         Grant     Claimed     Ineligible Unsupported
  Number        Amount       Costs      Costs         Costs
F-101-D-10   $5,165,645   $2,429,609   $12,592       $90,082
F-98-D-13     1,376,854    1,032,640                  41,230
F-96-D-13     1,892,414      965,170                  34,703
F-95-D-13     1,691,771    1,268,828                  50,185
F-92-D-15     1,050,000
F-92-D-14     1,295,000     971,250
F-92-D-13       824,028     618,021
F-91-D-12     2,330,000     723,750     1,513
F-91-D-11     1,300,144     975,108                    21,388
F-91-D-10     1,300,144     723,066
F-90-D-12       934,440     641,163     2,564
F-90-D-11       911,200     576,813     3,163          16,805
F-82-E-16     1,432,840     722,817
F-59-D-19       320,000
F-59-D-18       320,000     240,000
F-59-D-17       205,684     154,263
F-34-M-25     1,800,000
F-34-M-24     1,800,000    1,350,000                   33,369
F-34-M-23     1,800,000    1,350,000
F-30-R-32     6,318,984    2,250,000
F-30-R-31     3,079,428    2,309,571
F-22-D-39       244,108
F-22-D-38       203,000     150,029
F-22-D-37       175,200     131,400
FW-19-O-8       120,000
FW-19-O-7       120,000       90,000
FW-19-O-6       120,000       77,889                    8,312
FW-15-O-11       96,000       62,696                    5,092
W-137-L-1     2,000,500    1,154,568
W-136-M-3       200,000                 1,453
W-136-M-2       520,000      380,685    3,705
W-136-M-1       430,000      322,500    2,776           3,555
W-135-M-7     1,823,333    1,367,500



                          13
                                                              Appendix 1
                                                                 Page 4 of 4

               T EXAS P ARKS AND W ILDLIFE DEPARTMENT
              F INANCIAL SUMMARY OF R EVIEW C OVERAGE
             SEPTEMBER 1, 2006, T HROUGH AUGUST 31, 2008

                                                 Questioned Costs
                                                  (Federal Share)
   Grant          Grant        Claimed       Ineligible    Unsupported
  Number         Amount          Costs        Costs           Costs
W-135-M-6        $1,866,667    $1,171,035      $10,316        $34,627
W-132-R-8           506,667       380,000
W-132-R-7           533,333       400,000                     10,676
W-131-S-12          266,667       194,471                      4,710
W-130-L-3            10,000
W-129-M-18        3,373,667     2,526,027      17,332
W-129-M-17        3,120,000     2,088,817      16,564         88,823
W-128-R-16        1,633,334     1,071,215     158,158
W-128-R-15        1,226,667       920,000     131,103         13,955
W-127-R-17          966,640                     2,475
W-127-R-16        1,600,000     1,011,884       6,554
W-127-R-15        1,513,000       817,514       4,796        109,235
W-126-R-17          300,000
W-126-R-16        1,000,589        407,135
W-126-R-15          300,000        200,095      1,202         25,088
W-124-M-19        4,000,000                    14,012
W-124-M-18        5,000,333     3,750,000
W-124-M-17        5,333,334     3,548,323      15,752         31,986
W-122-S-12          580,000       261,439
W-122-S-11          933,333       441,828
W-107-R-34        3,373,334     2,530,000
W-107-R-33        4,000,000     2,469,469       9,223         92,169
W-104-S-36        1,106,667       830,000
W-104-S-35        1,220,000       610,431        9,185        24,354
 Totals        $126,215,607   $64,758,185    $ 431,233     $ 779,624




                              14
                                                                    Appendix 2

               TEXAS PARKS AND WILDLIFE DEPARTMENT
                  SCHEDULE OF QUESTIONED COSTS
             SEPTEMBER 1, 2006, THROUGH AUGUST 31, 2008

                                                               Ineligible
   Grant                                                        Vehicle
  Number                         Grant Title                   Ownership
                                                                  Costs
W-136-M-3      Wildlife Habitat Assessment                      $ 1,453
F-101-D-10     A.E. Wood State Fish Hatchery                     12,592
               Freshwater Game Fish Environmental Assistance
F-139-T-6                                                         2,270
               and Technical Guidance
               Saltwater Game Fish Environmental Assistance
F-140-T-6                                                         4,525
               and Technical Guidance
F-90-D-11      Athens State Fish Hatchery                         3,163
F-90-D-12      Athens State Fish Hatchery                         2,564
F-91-D-12      Sea Center Texas                                   1,513
W-104-S-35     Hunter Education                                   9,185
               Wildlife Resource Planning
W-107-R-33                                                        9,223
               Wildlife Administration and Coordination
W-124-M-17     Wildlife Restoration/WMAs                         15,752
W-124-M-19     Wildlife Restoration/WMAs                         14,012
W-126-R-15     Upland Game Bird Research and Survey               1,202
W-127-R-15     Big Game Research and Surveys                      4,796
W-127-R-16     Big Game Research and Surveys                      6,554
W-127-R-17     Big Game Research and Surveys                      2,475
W-128-R-16     Migratory Game Bird Research and Surveys           4,731
W-129-M-17     Private Lands and Habitat                         16,564
W-129-M-18     Private Lands and Habitat                         17,332
W-135-M-6      Wildlife Operations                               10,316
W-136-M-1      Wildlife Habitat Assessment                        2,776
W-136-M-2      Wildlife Habitat Assessment                        3,705
               Totals                                          $146,703




                                 15
                                                Appendix 3


T EXAS P ARKS AND W ILDLIFE DEPARTMENT
              SITES VISITED

                Headquarters

                    Austin


          District and Field Offices

            Jasper District Office
   San Marcos - Inland Fisheries Field Office


         Wildlife Management Areas

                 Bannister
                    Kerr
               Moore Plantation
                Walter Buck


                Fish Hatchery

                  A. E. Wood




                   16
                                                                                 Appendix 4

                   TEXAS PARKS AND WILDLIFE DEPARTMENT
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

  Recommendations                       Status                      Action Required
A.1, A.2, A.3, B, C, and D   FWS management has not           Additional information is
                             indicated its concurrence with   needed in the corrective action
                             the recommendations.             plan, including the actions taken
                             Additional information is        or planned to implement the
                             needed as outlined in the        recommendations, targeted
                             “Actions Required” column.       completion date(s), and
                                                              verification that FWS officials
                                                              reviewed and approved of
                                                              actions taken or planned by the
                                                              State. We will refer
                                                              recommendations not resolved
                                                              and/or implemented at the end
                                                              of 90 days (after February 11,
                                                              2010) to the Assistant Secretary
                                                              for Policy, Management and
                                                              Budget for resolution and/or
                                                              tracking of implementation.




                                         17
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
